U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, D.C. 20590
Office of the Secretary
of Transportation



July 27, 2005


The Honorable James L. Oberstar
Ranking Democratic Member
Committee on Transportation
  and Infrastructure
U.S. House of Representatives
Washington, DC 20515

Dear Representative Oberstar:

Thank you for your April 28, 2005 letter requesting that we provide you with the current
status of the Federal Aviation Administration’s (FAA) actions in response to the
recommendations in our July 2003 audit report “Review of Air Carriers’ Use of Aircraft
Repair Stations.” The use of repair stations has become a fundamental part of air carriers’
maintenance programs, and a key finding in our report was that FAA had not responded to
the shift in the source of air carriers’ maintenance. That is, airlines were increasingly
outsourcing aircraft maintenance to repair stations, but FAA continued to concentrate its
inspection resources on maintenance performed at air carriers’ in-house maintenance
facilities.

The focus of our report was not repair station maintenance versus in-house maintenance—
it was the fact that both require oversight. We emphasized the need for FAA to ensure it
was channeling its oversight toward the organizations actually performing the
maintenance. Since our report, air carriers have expanded their use of external repair
facilities and now contract out 53 percent of their aircraft maintenance expense to outside
repair facilities, up from 47 percent in 2003. Accordingly, FAA’s progress in
implementing the recommendations in our report continues to be an important issue.

FAA responded positively to the recommendations and proposed to implement actions
that, in our opinion, would enhance its oversight of domestic and foreign repair stations.
FAA initially planned to implement all of our recommendations by August 2005.
However, its progress has been slow: FAA has completed only one of nine promised
actions. FAA has recently slipped its original target dates and now indicates all


Control No. 2005-035
                                                                                          2

recommended actions will not be fully implemented until the beginning of fiscal year
(FY) 2007.

A key part of the work that remains is completion of FAA’s plan to implement a new risk-
based system for oversight of domestic repair stations. FAA has developed the
framework for the system but still needs to train the inspectors and develop new computer
software to provide inspectors with data analysis capabilities.         Implementation of
recommendations to address our findings on FAA’s oversight of foreign repair stations
also is incomplete. According to FAA, implementation of its planned actions in this area
depends on completion of its complex negotiations with the European Aviation Safety
Agency. FAA has developed several draft guidance documents outlining procedures that
will be used when repair station inspections are conducted by foreign authorities on
FAA’s behalf. These procedures will not be put in place until a new bilateral agreement
between the United States and the European Agency is reached—this could be several
years away.

A detailed summary of our recommendations, the specific actions planned or taken by
FAA, and actions needed can be found in the addendum to this letter. Overall, we believe
FAA’s proposed actions are good, but we are concerned with the planned timetable for
their completion. As air carriers work to cut costs, their use of contract maintenance
facilities is increasing. Since January 2005, at least three major airlines have announced
their plans to decrease their in-house maintenance staff and increase use of repair stations.

In our view, FAA needs to re-evaluate its timetable and, if needed, its planned actions to
determine if it can expedite improvements to its process for repair station oversight. We
note that draft reports from both the House and Senate Committees on Appropriations
show restored funding for FAA aviation safety inspector staffing; the funding was reduced
in FY 2005. This should provide additional support for repair station oversight.

Details on July 2003 Report Recommendations and FAA’s Progress
During our 2003 audit, we reviewed FAA’s oversight of 12 domestic and 11 foreign FAA
certificated repair stations. We identified the following issues with respect to FAA’s
oversight.

Domestic Repair Stations. In addition to finding that FAA inspectors were not focusing
their oversight in areas where more of the maintenance was performed, we also
determined that:

    • FAA inspections of repair stations were infrequent and
    • Inspections did not encompass a review of all aspects of repair stations’ operations.




Control No. 2005-035
                                                                                          3

We made four recommendations to improve FAA’s repair station oversight. For example,
we recommended that FAA develop a means of identifying repair stations that air carriers
use to perform critical repairs; perform risk assessments of data collected to target
inspector resources; and develop a comprehensive, standardized approach to repair station
oversight.

Shortly after our report was issued, FAA formed a workgroup to determine how best to
address these recommendations. The workgroup developed a new risk-based system for
oversight of domestic repair stations. This approach (much like FAA’s Air Transportation
Oversight System for air carrier oversight) would allow FAA to target inspector resources
to the areas of greatest need and provide continuous assessment of each repair station.
The new oversight system would also supply a mechanism to prioritize repair stations
assessed as a high risk.

Another key aspect of the new system will be the standardization of repair station
surveillance. FAA inspectors will be required to review 14 specific areas at each repair
station before an inspection is complete. For example, each inspector would be required
to evaluate tools and equipment, parts and materials, training, contract maintenance, and
technical data during inspections.

FAA plans to introduce the first phase of its new oversight system in October 2005—a
manually operated version that will permit inspectors to use the new 14-area criteria for
repair station inspections. However, this first version will not provide inspectors with
automated data or risk analysis capabilities, and it will not permit inspectors to prioritize
repair stations for review. The final phase of FAA’s new risk-based repair station
oversight system will be more comprehensive, but it will not be fully operational until
FY 2007.

In an effort to draw inspectors’ immediate attention to the need to improve repair station
oversight, FAA has initiated a special emphasis program that requires its inspectors to
evaluate how well air carriers are monitoring the work performed for them by their major
maintenance providers. FAA recognizes that this is only a part of the important work that
remains on improving its repair station oversight process.

Foreign Repair Station Oversight. During our 2003 review, we also determined that
FAA had initiated agreements with three foreign countries to conduct oversight of FAA
certificated repair stations in their respective countries. However, FAA had not
effectively monitored surveillance conducted by these foreign aviation authorities on its
behalf. Specifically:

    • The foreign aviation authorities did not focus on FAA standards during
      surveillance and



Control No. 2005-035
                                                                                         4

    • The inspection documentation provided by the authorities to FAA was incomplete
      or incomprehensible.

We made five recommendations for FAA to more closely monitor the quality of repair
station oversight provided by foreign civil aviation authorities. For example, we
recommended that FAA clarify its inspection documentation requirements with foreign
aviation authorities and develop procedures to verify that foreign inspectors place
adequate emphasis on FAA requirements during their inspections of FAA-certificated
repair stations. In response to our recommendations, FAA has developed several draft
guidance documents for use in conducting oversight of FAA-certificated repair stations.
But, again, we do not know when they will be implemented. When finalized, the
guidance documents will:

    • Provide a guide for verifying which areas were inspected at foreign repair stations,
    • Clarify inspection documentation that should be submitted to FAA, and
    • Include specific inspection codes to be used to document inspections conducted by
      foreign authorities and sample inspections conducted by FAA.

On July 20, 2005, FAA officials advised us that they are now developing interim guidance
to be used until negotiations are completed with the European Aviation Safety Agency.
This guidance will be incorporated into an FAA advisory circular that FAA hopes to issue
in the next few weeks.

The use of repair stations is a trend that is likely to continue. In our view, FAA needs to
re-evaluate its timetable for completing its proposed actions and determine if they can be
expedited. We will continue to monitor FAA’s progress and keep you and your staff
apprised as we obtain further information. If you have any questions concerning this
report, please contact me at (202) 366-1959 or David A. Dobbs, Assistant Inspector
General for Aviation and Special Program Audits, at (202) 366-0500.


Sincerely,




Kenneth M. Mead
Inspector General

Enclosure




Control No. 2005-035
                                                                                                                                                           Enclosure
                                                                                                                                                          Page 1 of 3

                             Addendum: OIG Recommendations and Corrective Actions Planned or Taken by FAA


                                                      Air Carriers' Use of Aircraft Repair Stations, July 2003
                                                                                                                                        FAA Actions              Target
                     OIG Recommendation                                                  FAA Actions Taken                                 Needed              Action Date
1   Collect and monitor air carrier maintenance financial        FAA has proposed a change in oversight that would require air       Finalize                   FY 2006
    data to identify trends in the source of maintenance and     carriers to provide Quarterly Utilization Reports to FAA            requirement for air
    make shifts in inspector resources as warranted.             identifying which maintenance facilities performed the highest      carriers to provide
                                                                 volume of maintenance activity and performed the most critical      Quarterly
                                                                 types of maintenance for each air carrier. While this proposed      Utilization Reports
                                                                 corrective action does not directly address our recommendation,
                                                                 the alternative action proposed would provide valuable trend
                                                                 information for FAA to use in targeting its limited resources.



2   Develop a process to (a) identify repair stations that air   FAA developed a workgroup to address various issues in our          Refine and make            FY 2007
    carriers use to perform aircraft maintenance, (b)            report. To address this recommendation, the workgroup               fully operational
    identify the repair stations that are performing safety      recommended a risk-based oversight system for repair stations       the repair station
    critical repairs, and (c) target inspector resources based   that allows for continuous assessments of each repair station and   assessment tool.
    on risk assessments or analysis of data collected on air     aids inspectors in prioritizing repair stations for inspections.
    carrier outsourcing practices.


3   Implement procedures to improve information sharing          FAA initiated a special emphasis program to evaluate outsourced     Refine and make            FY 2007
    through FAA’s newly integrated Safety Performance            maintenance management and oversight. However, no action has        fully operational
    Analysis System by: (a) requiring certificated               been taken to require certificate management inspectors to          the repair station
    management inspectors to document the name of the            document the name of the repair stations they have reviewed in      assessment tool.
    repair stations they have reviewed in the Air                ATOS. FAA's proposed repair station oversight system will
    Transportation Oversight System (ATOS) database,             address our concerns regarding the lack of inspection
    and (b) requiring district office inspectors to include      documentation provided by district office inspectors but will not
    areas inspected, the results, and the corrective actions     be fully operational for at least 2 years.
    taken in the Program Tracking and Reporting System.
                                                                                                                                                       Enclosure
                                                                                                                                                      Page 2 of 3

                             Addendum: OIG Recommendations and Corrective Actions Planned or Taken by FAA


                                                     Air Carriers' Use of Aircraft Repair Stations, July 2003
                                                                                                                                                             Action
                     OIG Recommendation                                                    Actions Taken                               Actions Needed      Target Date
4   Develop a comprehensive, standardized approach to           The FAA workgroup was tasked with developing a standardized          Refine and make        FY 2007
    repair station surveillance by requiring inspectors to      oversight system for repair station surveillance. The workgroup      fully operational
    review all aspects of repair station operations, from the   recommended a risk-based oversight system with a baseline            the repair station
    time the repair is received until it is released to the     surveillance program in which the current annual repair station      assessment tool.
    customer.                                                   facility inspection will be divided into 14 sub-elements to better
                                                                define the intent of the guidance and provide for more
                                                                comprehensive surveillance. All 14 sub-elements would have to
                                                                be completed by the inspector before the inspection record could
                                                                be closed.



5   Modify existing inspection documentation                    FAA has revised guidance for repair facilities seeking to obtain     Finalize the           FY 2007
    requirements with foreign aviation authorities so that      an FAA repair station certificate under the provisions of a          guidance.
    FAA receives sufficient documentation to ensure that        bilateral aviation safety agreement. The revised guidance (AC-
    FAA-certified repair stations meet FAA standards.           145-7BXX) contains new provisions stating the documentation
                                                                foreign aviation authorities must provide to FAA to ensure that
                                                                FAA-certificated repair stations meet FAA standards. However,
                                                                this guidance will not be finalized until FAA reaches a new
                                                                agreement with the European Aviation Safety Agency (EASA).




6   Develop a process to capture results from (a) foreign       FAA has proposed changes to inspector guidance material              Finalize        the    FY 2007
    aviation authority inspections, and (b) FAA sample          (Handbook 8300.10) that would address this recommendation.           guidance.
    inspections of foreign repair stations in FAA’s             The proposed guidance provides a specific Program Tracking and
    Program Tracking and Reporting System.                      Reporting System code to use to capture inspections performed
                                                                by foreign authorities and sample inspections performed by FAA
                                                                inspectors. However, this guidance will not be finalized until
                                                                FAA reaches a new agreement with EASA.
                                                                                                                                                    Enclosure
                                                                                                                                                   Page 2 of 3

                            Addendum: OIG Recommendations and Corrective Actions Planned or Taken by FAA


                                                     Air Carriers' Use of Aircraft Repair Stations, July 2003
                                                                                                                                                          Action
                     OIG Recommendation                                                 Actions Taken                                Actions Needed     Target Date
7   Develop procedures to verify that foreign aviation        FAA’s proposed revisions to its guidance for repair facilities        Finalize the         FY 2007
    authorities place adequate emphasis on FAA                seeking to obtain and maintain an FAA repair station certificate      guidance.
    regulations when conducting reviews at FAA-               under the provisions of a bilateral aviation safety agreement
    certificated facilities.                                  should address this recommendation. However, this guidance
                                                              (AC-145-7BXX) will not be finalized by FAA until it has
                                                              reached a new bilateral agreement with EASA.



8   Clarify requirements with foreign aviation authorities    FAA’s proposed revisions to guidance for repair stations seeking      Finalize the         FY 2007
    to ensure that changes to FAA-certified foreign repair    to obtain and maintain an FAA repair station certificate under the    guidance.
    station operations that directly impact FAA               provisions of a bilateral aviation safety agreement should also
    requirements are sent to FAA for approval.                address this recommendation. The revised guidance (AC-145-
                                                              7BXX) contains procedures that will ensure that changes to FAA-
                                                              certificated foreign repair station operations that directly impact
                                                              FAA requirements are sent to FAA for approval. However, FAA
                                                              will not make this guidance final until it has reached a new
                                                              agreement with EASA.


9   Modify procedures for conducting sample inspections       In January 2004, FAA officials met with representatives from the      None. Agency           N/A
    to permit FAA inspectors to: (a) conduct the number       foreign aviation authorities that perform surveillance on FAA’s       actions
    of inspections necessary to gain assurance that foreign   behalf and discussed the need to remove the limitation of a 10        satisfactorily
    aviation authority inspections meet FAA standards         percent annual sampling size. FAA International Field Office          address the
    during the initial implementation periods when foreign    managers were informed that it is their responsibility to             recommendation.
    authorities conduct inspections on FAA’s behalf, and      determine the sample size based on factors specified in the
    (b) base the number of inspections in subsequent years    inspector handbook guidance. FAA’s action satisfactorily
    on analysis of data collected from prior sample           addresses the intent of this recommendation.
    inspections.
